APPENDIX

1a

APPENDIX A

UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 18-6096

JERMAINE LENARD MOSS,
Petitioner – Appellant,
v.
KENNY ATKINSON, Warden,
Respondent – Appellee.
Appeal from the United States District Court for the
Eastern District of North Carolina, at Raleigh. James
C. Dever III, District Judge. (5:17-hc-02078-D)
Argued: March 19, 2019

Decided: April 19, 2019

Before GREGORY, Chief Judge, and DIAZ and
HARRIS, Circuit Judges.
Affirmed by unpublished opinion. Judge Diaz wrote
the opinion, in which Chief Judge Gregory and Judge
Harris joined.

2a

ARGUED:
Jason
Neal,
WEST
VIRGINIA
UNIVERSITY COLLEGE OF LAW, Morgantown,
West Virginia, for Appellant. Amy N. Okereke,
OFFICE OF THE UNITED STATES ATTORNEY,
Raleigh, North Carolina, for Appellee. ON BRIEF:
Lawrence D. Rosenberg, Washington, D.C., Benjamin
G. Minegar, JONES DAY, Pittsburgh, Pennsylvania,
for Appellant. Robert J. Higdon, Jr., Jennifer P. MayParker, Assistant United States Attorney, OFFICE
OF THE UNITED STATES ATTORNEY, Raleigh,
North Carolina, for Appellee.
Unpublished opinions are not binding precedent in
this circuit.
DIAZ, Circuit Judge:
Jermaine Moss appeals the denial of his petition for
habeas corpus. He contends that a retroactive change
in the law has made his sentence unlawful. We affirm
the district court’s judgment because Moss’s sentence
remains lawful under applicable precedent.
I.
Moss was tried in a Florida federal district court for
two drug offenses and one firearms offense. The jury
convicted him on all three counts. At sentencing, the
district court calculated a Guidelines range of 324–405
months in prison, with lengthy mandatory minimums
on the drug charges. It sentenced Moss to 27 years
each on the drug charges and 20 years on the firearms
charge, all concurrent.

3a
Normally, one of Moss’s drug offenses would carry a
mandatory minimum of 10 years and the other a
mandatory minimum of 5 years. 21 U.S.C. §
841(b)(1)(A), (b)(1)(B) (2006). But the government filed
an information pursuant to 21 U.S.C. § 851(a) before
trial. The information said that Moss had a prior
conviction for a serious drug felony. Under the law at
the time, such a prior conviction increased the
mandatory minimums to 20 years and 10 years,
respectively. 21 U.S.C. § 841(b)(1)(A), (b)(1)(B) (2006).
The purported conviction arose when Moss pleaded
nolo contendere to a drug felony in Florida state court;
the state judge withheld adjudication of guilt for the
offense.
An Eleventh Circuit case established that Moss’s
nolo contendere plea counted as a conviction for § 841,
despite the withholding of adjudication. See United
States v. Mejias, 47 F.3d 401, 403–04 (11th Cir. 1995).
Given that precedent, Moss didn’t challenge the
mandatory minimums in his direct appeal, his motion
for habeas corpus under 28 U.S.C. § 2255, or his other
attempts at collateral relief. But Moss now contends
that the Eleventh Circuit effectively overruled Mejias
in United States v. Clarke, 822 F.3d 1213 (11th Cir.
2016). After Clarke, Moss sought resentencing
through a petition for habeas corpus under 28 U.S.C.
§ 2241 in federal district court in North Carolina
(where he is now incarcerated). The district court
denied the petition, and Moss appealed.
Before appellate briefing, this court decided United
States v. Wheeler, which set the standard for
challenging an illegal sentence through § 2241. 886
F.3d 415 (4th Cir. 2018), cert. denied, No. 18-420, 2019
WL 1231947 (U.S. Mar. 18, 2019). Applying the

4a
Wheeler standard, we affirm the district court’s
judgment.
II.
Whether Moss may challenge his sentence through
a § 2241 petition is a question of law that we review de
novo. See Lester v. Flournoy, 909 F.3d 708, 710 (4th
Cir. 2018). Under our precedent, a federal prisoner
may challenge his sentence through a § 2241 petition
if
(1) at the time of sentencing, settled law of this
circuit or the Supreme Court established the
legality of the sentence; (2) subsequent to the
prisoner’s direct appeal and first § 2255 motion,
the aforementioned settled substantive law
changed and was deemed to apply retroactively
on collateral review; (3) the prisoner is unable to
meet the gatekeeping provisions of § 2255(h)(2)
for second or successive motions; and (4) due to
this retroactive change, the sentence now
presents an error sufficiently grave to be deemed
a fundamental defect.
Wheeler, 886 F.3d at 429. Moss can satisfy Wheeler’s
first and third elements. But he can’t satisfy Wheeler’s
second element because his sentence is still legal
under Eleventh Circuit law.* When he was sentenced,
* This court has not definitively resolved whether a petitioner
sentenced out of circuit must show that his sentence is illegal
under the sentencing circuit’s law or our circuit’s law. Wheeler
concerned a change in Fourth Circuit law for a petitioner
sentenced in circuit. 886 F.3d at 429–30. And while the petitioner
in Lester was sentenced in the Eleventh Circuit, the law had
changed in the petitioner’s favor in both our court and the

5a
Eleventh Circuit precedent squarely established that
his conviction counted as a prior “serious drug felony”
under 21 U.S.C. § 841. Mejias, 47 F.3d at 403–04.
Moss claims that Clarke effectively overruled that
precedent. 822 F.3d at 1215. But there is every
indication that Mejias is still good law.
Mejias held that the term “conviction” in 21 U.S.C.
§ 841 is defined by federal law, not by the law of the
state of conviction. 47 F.3d at 403–04 (citing Dickerson
v. New Banner Inst., Inc., 460 U.S. 103, 119 (1983)
(holding that federal law defines terms in federal
statutes unless Congress indicates otherwise)). As an
example of what the term “conviction” means under
federal law, the court cited United States v. Jones, 910
F.2d 760, 761 (11th Cir. 1990). In Jones, a nolo
contendere plea with adjudication withheld counted
as a conviction for purposes of a Sentencing
Guidelines enhancement. Id. The court in Mejias saw
no reason for a different rule for § 841, which might
disrupt uniformity in sentencing and undermine
efforts to deter recidivism. 47 F.3d at 404.
The Eleventh Circuit’s Clarke decision concerned
the federal felon in possession statute, which defines
the term “conviction” according to the law of the state
Eleventh Circuit. 909 F.3d at 710, 712. In this case, we will apply
the substantive law of the Eleventh Circuit. The parties agree
that Moss, who was sentenced in a district court in Florida,
deserves resentencing only if his sentence is now illegal under
Eleventh Circuit law. And applying our court’s substantive law
likely wouldn’t change the outcome because Moss’s sentencing
enhancement would likely be legal under Fourth Circuit
precedent. See United States v. Bridges, 741 F.3d 464, 469–70
(4th Cir. 2014); United States v. Campbell, 980 F.2d 245, 249–51
(4th Cir. 1992).

6a
where the crime was prosecuted. 822 F.3d at 1214; see
18 U.S.C. § 921(a)(20). In Clarke, the Eleventh Circuit
certified the question to the Florida Supreme Court of
whether a guilty plea with adjudication withheld is a
conviction under Florida law. 822 F.3d at 1214. The
Florida Supreme Court ruled that such a plea is not a
conviction under state law. Clarke v. United States,
184 So. 3d 1107, 1116 (Fla. 2016). With that answer
in hand, the Eleventh Circuit held that such a plea is
not a conviction for the federal felon in possession
statute. Clarke, 822 F.3d at 1214–15. In so ruling, the
court overruled two circuit precedents that had come
to the opposite conclusion about Florida law. Id. at
1215.
Moss’s argument is as follows. Mejias relied on
Jones. Jones, in turn, relied on cases that Clarke
overruled. Thus, Clarke effectively overruled both
Jones and Mejias. But in the Eleventh Circuit, the
first panel decision controls unless there has been an
intervening change in applicable law. Hattaway v.
McMillian, 903 F.2d 1440, 1445 n.5 (11th Cir. 1990).
The Clarke panel could only overrule two Eleventh
Circuit precedents because of an intervening change
in Florida law. 822 F.3d at 1215. Mejias, in contrast,
explains what a conviction is for purposes of federal
law. Thus, the Clarke panel could not overrule
Mejias—only the Supreme Court or the en banc
Eleventh Circuit could.
In any event, Mejias can stand without the cases
that Clarke overruled. Those cases turned on Florida
state law, whereas Mejias relies on a federal law
definition of “conviction.” A new construction of
Florida law would have no impact on whether a nolo
contendere plea with adjudication withheld is a

7a
conviction for 21 U.S.C. § 841. Mejias’s citation to
Jones, moreover, changes nothing.
First, the Clarke panel could not overrule Jones, a
decision based on federal law. Second, Mejias turned
on the general federal definition of the term
“conviction” and used Jones to illustrate that
definition. Mejias, 47 F.3d at 403–04. It does not
appear that Jones controlled Mejias; in fact, the
Mejias court considered whether to establish a
different rule than Jones and decided against it. Id. at
404 (“To decide otherwise would disrupt uniformity in
federal sentencing and frustrate the purpose of [§
841(b)(1)(B)]—to punish and deter recidivism.”). The
Eleventh Circuit has consistently used the same
definition for other cases in which federal law defines
the term “conviction.” See, e.g., United States v.
Maupin, 520 F.3d 1304, 1306–07 (11th Cir. 2008);
United States v. Fernandez, 234 F.3d 1345, 1346–47
(11th Cir. 2000). It seems quite unlikely that Clarke—
which concerned state law—silently triggered a chain
reaction that overruled a body of cases based on
federal law.
This conclusion is in accord with Eleventh Circuit
case law after Clarke. The same day it issued Clarke,
the Eleventh Circuit panel issued an unpublished
opinion in the same case. United States v. Clarke
(Clarke II), 649 F. App’x 837 (11th Cir. 2016). Despite
the ruling in Clarke, the Clarke II opinion held that
the district court did not plainly err by holding that a
suspended sentence with adjudication withheld
counts as a conviction for § 841. Id. at 848–49 (citing
Mejias, 47 F.3d at 404). If the Clarke panel believed it
had overruled Mejias, it likely would have found plain
error on this point in Clarke II. What’s more, several

8a
recent unpublished Eleventh Circuit opinions that
concern the federal definition of “conviction” treat
Mejias as good law. See United States v. Solis-Alonzo,
723 F. App’x 863, 865 (11th Cir. 2018); United States
v. Marius, 678 F. App’x 960, 964 (11th Cir. 2017);
United States v. Baker, 680 F. App’x 861, 862, 865
(11th Cir. 2017); cf. United States v. Green, 873 F.3d
846, 859 (11th Cir. 2017) (citing Mejias in a discussion
of Federal Rule of Evidence 404(b)).
We hold that Moss cannot demonstrate a change in
Eleventh Circuit substantive law. Therefore, we need
not address Wheeler’s remaining requirements.
Moss’s three alternative arguments are unavailing.
First, he contends that equitable principles justify
remanding his case for resentencing, but he provides
no authority suggesting that equitable relief remains
an option when a petitioner fails to pass a threshold
test for filing a § 2241 petition. Second, he contends
that he is entitled to resentencing because he
shouldn’t have received a criminal history point for his
nolo contendere plea. But Eleventh Circuit precedent
forecloses this argument. See United States v.
Rockman, 993 F.2d 811, 813–14 (11th Cir. 1993). As
with Mejias, we think it is implausible that Clarke
overruled Rockman. And third, Moss contends that if
we do not grant his habeas petition, we should still
transfer the petition to the sentencing court in Florida
to decide the merits. But Moss fails to cite any
procedural mechanism by which we could transfer
this case to the Middle District of Florida without
granting his petition. Furthermore, the Eleventh
Circuit’s jurisprudence on § 2241 petitions would
foreclose Moss’s petition, so transferring the petition
to a Florida district court would be futile. See

9a
McCarthan v. Dir. of Goodwill Indus.-Suncoast, Inc.,
851 F.3d 1076, 1090 (11th Cir. 2017) (en banc)
(holding that a § 2241 petition cannot be based on a
change in circuit law).
The district court’s judgment is therefore
AFFIRMED.

10a

APPENDIX B

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF
NORTH CAROLINA
WESTERN DIVISION
No. 5:17-HC-2078-D

JERMAINE LENARD
MOSS,
Petitioner,
v.
KENNY ATKINSON,
Respondent.

)
)
)
)
)
)
)
)

ORDER

On April 7, 2017, Jermaine Lenard Moss (“Moss” or
“petitioner”), a federal inmate proceeding prose, filed
a petition for a writ ofhabeas corpus pursuant to 28
U.S.C. § 2241 [D.E. 1], a supporting memorandum
[D.E. 1-1], and an exhibit [D.E. 1-2]. On April 19, 2017,
Moss moved to amend his petition to include
additional arguments [D.E. 4]. As explained below, the
court grants Moss's motion to amend, conducts its
preliminary review pursuant to 28 U.S.C. § 2243, and
dismisses the petition.
Following a joint jury trial with a co-defendant,

11a
Moss was convicted of, and sentenced to a total of
324 months' imprisonment for: (1) conspiracy to
possess with intent to distribute 50 grams or
more of crack cocaine, in violation of 21 U.S.C. §
841(a)(l) (“Count 1”); (2) conspiracy to use and
carry firearms during and in relation to a drug
trafficking crime, in violation of 18 U.S.C. §
924( o) (“Count 2”); and (3) possession with intent
to distribute 5 grams or more of crack cocaine on
September 28, 2006, in violation of§ 841(a)(l)
(“Count 9”).
United States v. Moss, 290 F. App'x 234, 237 (11th Cir.
2008) (per curiam) (unpublished). The United States
Court of Appeals for the Eleventh Circuit described
the evidence against Moss as follows:
The local county sheriff's office began
investigating a group of people suspected of
dealing crack cocaine from a certain house. Once
it gathered, by way of ''trash pulls,” sufficient
evidence of drug dealing and use of firearms
within the house, it obtained a search warrant.
****
Detective Richard Murray, a police officer with
the local county sheriff's office, testified for the
government that he conducted physical
surveillance of: and ''trash pulls” from, the
duplex and another residence used by the coindictees. The trash pulls yielded: (1) several
plastic “sandwich bags,” which Murray suspected
from experience were used for storing crack
cocaine for sale in small quantities and which
field tests indicated had contained crack cocaine;
(2) a drug ledger; (3) a box that had contained a

12a
digital scale, which Murray suspected from
experience was used for weighing drugs; ( 4) an
empty baking soda box, the contents of which
Murray suspected from experience had been
mixed with powder cocaine to make crack
cocaine; (5) razor blades, which Murray
suspected from experience were used to cut the
crack cocaine into smaller pieces and which field
tests indicated had been used on crack cocaine;
and (6) empty ammunition boxes for highpowered or assault rifle.
Jarvis McCants, a co-indictee of Moss's ...,
testified for the government that the distribution
ring operated from the aforementioned
residences. Inside the residences were crack
cocaine, cocaine powder, firearms, and money.
The firearms were used to protect the drugs and
money. The government presented each of the
firearms confiscated from the duplex, and
McCants identified each as either belonging to a
member of the conspiracy or being kept in the
duplex. The distribution ring used three cellular
telephones for crack-cocaine orders. Customers
would call, one of the co-conspirators would
answer and take an order, and then the coconspirator would meet the customer at a place
outside the residence and deliver the crack
cocaine.
Moss's job within the ring was answering the
telephones, taking drug orders, and delivering
drugs. McCants saw Moss with a firearm,
specifically a chrome handgun, at the second
residence. Also, one of the firearms kept at the
residence, a pump-action shotgun, only could be

13a
used by Moss because he was a big man and the
firearm could be used by a big man only.
However, Moss never used it.
****
Quentin Branch, who met and spoke with
Moss ... while in jail, testified for the government
that, while in jail, Moss told Branch that Moss
was involved in a drug ring. Moss stated he sold
only “light” amounts of crack cocaine, whereas
others in the ring “sold heavy duty” amounts.
****
Wendy Davis-Zarvis, a detective with the local
county sheriff's office, testified for the
government that she participated in a “buy bust”
on September 28, 2006. Her role was to act as a
customer seeking crack cocaine. She filmed the
ultimate transaction with a camera hidden in the
button hole of her shirt. Specifically, DavisZarvis made a call to a particular telephone
number and indicated that she wished to buy
approximately $300 worth of crack cocaine. The
person who answered the telephone call agreed
to meet Davis-Zarvis at a particular gas station
and told Davis-Zarvis what type of car he would
be driving. After approximately ten minutes, a
car matching this description arrived at the gas
station carrying three back (sic) males. Rather
than get into the car, Davis-Zarvis chose to lean
into the car on the front passenger side for safety
reasons. Once she leaned into the car in this
manner, she could see the driver of the car. The
driver asked to see Davis-Zarvis's money. When
she showed him her ''wad” of $300, he handed her

14a
what she believed was crack cocaine, and she
handed him the money ....
Immediately after the transaction, DavisZarvis stated into her recording device that the
driver was wearing a red shirt. Later, other
officers stopped the car and arrested its
passengers. At that time, the officers took
photographs of the passengers. The government
entered into evidence and played the videotape of
the recording made from Davis-Zarvis's hidden
camera. The videotape, however, did not show
the driver exchanging crack cocaine for money
because Davis-Zarvis was leaning on the front
passenger seat and, therefore, blocking the view
of the camera. The government also entered into
evidence the photographs taken by the arresting
officers. One of the photographs depicted a man
wearing a red shirt. Davis-Zarvis identified this
man as Moss and stated that she had “no doubt”
that Moss was the man who sold her crack
cocaine ....
Healy, the forensics chemist, testified for the
government that he analyzed the amounts of
possible crack cocaine seized pursuant to the buy
bust. He found that the seized substances were
crack cocaine and that one seized amount
weighed 8.345 grams.
****
After hearing this, and other evidence, the jury
found Moss guilty of all charges. Moss ... filed
motions for judgment[ ] of acquittal and new
trial[ ], pursuant to Fed. R. Crim. P. 29 and Fed.
R. Crim. P. 33, arguing that the evidence was

15a
insufficient to support [his] conviction[ ]. The
district court denied the motions.
Before Moss's ... sentencing, a probation officer
prepared [a] presentence investigation report[ ].
Therein, the probation officer set Moss's total
offense level at 40 and criminal history category
at
IT.
Accordingly,
Moss's
guideline
imprisonment range was 324 to 405 months. The
probation officer noted that Count 1 carried a
statutory term of 20 years' to life imprisonment,
pursuant to 21 U.S. C. § 841(b)(l)(A);[1] Count 2
carried a statutory term of O to 20 years'
imprisonment, pursuant to § 924(o); and Count 9
carried a statutory term of 10 years' to life
imprisonment, pursuant to 21 U.S.C. §
841(b)(1)(B).
****
At Moss's sentencing hearing, he argued that
he deserved at least a minor-role reduction
because he was not a “big player” or even an
“average participant” in the conspiracy ....
Moss also argued that the guideline
imprisonment range was greater than necessary

1

On April 26, 2007, the government filed notice of its intent
to rely on Moss's prior conviction to seek an enhanced sentence
under 21 U.S.C. § 851. Notice, United States v. Moss, No. 8:06CR-00464-EAK.-TOW, [D.E. 133] (M.D. Fla. Apr. 26, 2007); see
Pet. 6; Mem. Supp. Pet. 1–2; Ex. [D.E. 1-2] (copy of state court
“criminal punishment code scoresheet”). The conviction-a plea of
nolo contendere to felony possession of cocaine with adjudication
withheld-was sufficient to support the section 851 enhancement.
See United States v. Green, 873 F.3d 846, 859 (11th Cir. 2017);
United States v. Meiias, 47 F.3d 401,403 (11th Cir. 1995).

16a
and requested a sentence of 20 years'
imprisonment, or the statutory minimum
mandatory. Moss's family members spoke in
support of Moss. The government requested a
sentence in the middle of the guideline
imprisonment range, or 360 months, to reflect
the serious nature of the offense and the serious
nature of Moss's participation in the offense and
to protect the public from Moss.
The district court impliedly overruled Moss's
mitigating-role objection. The district court
stated that it had reviewed the parties'
arguments and the factors set out in 18 U.S.C. §
3553(a) and noted that Moss was a danger to the
community. The district court sentenced Moss to
324 months' imprisonment as to Counts 1 and 9
and 240 months' imprisonment as to Count 2,
with all terms to be served concurrently. The
district court concluded that this sentence was
sufficient but not greater than necessary.
Id. at 238–43 (citation omitted).
On December 3, 2009, Moss filed a motion to vacate
under 28 U.S.C. § 2255. See Mot. to Vacate, Moss v.
United States, No. 8:09-CV -02463-EAK.-TOW, [D.E.
1] (M.D. Fla. Dec. 3, 2009); cf. Pet. 4 (stating that Moss
filed the motion on a different date). On October 15,
2010, the court denied the motion. Order, Moss v.
United States, No. 8:09-CV -02463-EAK.-TOW, [D.E.
27] (M.D. Fla. Oct. 15, 2010); see Pet. 4. Moss appealed,
and on Aprill3, 2011, the United States Court for the
Eleventh Circuit denied his application for a
certificate of appealability. Order, Moss v. United

17a
States, No. 8:09-CV-02463-EAK.-TOW, [D.E. 33] (M.D.
Fla. Apr. 13, 2011).
On March 28, 2012, the trial court reduced
Moss's drug sentences to 240 months each,
pursuant to a retroactive reduction in the crack
sentencing guidelines. On May 3, 2013, Moss
filed a second § 2255 motion in the trial court. He
argued that he was actually innocent of Count 9.
The motion was denied, because Moss had not
obtained permission to file a successive motion.
Moss filed his third motion pursuant on § 2255
on October 7, with the Eleventh Circuit. He
argued that his drug sentences were based on a
drug quantity not found by the jury, that he is
actually innocent of the firearm charge, and the
trial court erred in instructing the jury on this
charge. The appellate court denied him leave to
proceed on the successive motion.
Moss v. Fisher, No. 3:14CV321-CWR-FKB, 2014 WL
2196392, at *1 (S.D. Miss. May 27, 2014)
(unpublished) (citations omitted); see ln re Moss, No.
13-14570-D, 2013 WL 10252931, at *3 (11th Cir. Oct.
23, 2013) (per curiam) (unpublished).
On April 17, 2014, Moss filed a petition for a writ of
habeas corpus pursuant to 28 U.S.C. § 2241 in the
United States District Court for the Southern District
of Mississippi. Moss, 2014 WL 2196392, at *1. Moss
“again claim[ed] that (1) his sentences were
unlawfully based on drug quantities not found by the
jury, (2) he [was] actually innocent of the firearm
count, and (3) the jury was improperly instructed on
the firearm count.” Id. On May 27, 2014, the court
dismissed Moss's section 2241 petition. Id. at *3.

18a
Although Moss filed the current action under 28
U.S.C. § 2241, he again attacks his sentence.
Specifically, Moss seeks ''to vacate his sentence and
remove the enhanced penalty under 21 U.S.C. § 851
and enter a new sentence that does not include the §
851 enhancement.” Mem. Supp. Pet. 1; see also Mot.
Amend 3. Moss relies on “several important cases” of
the United States Supreme Court and various federal
appellate courts “holding attacks in §851
enhancements may be cognizable.” Mem. Supp. Pet. 9–
10 (citing cases); see also Mot. Amend 1–2.
Moss must challenge the legality of his sentence
under 28 U.S. C. § 2255 unless ''the remedy by [section
2255] motion is inadequate or ineffective to test the
legality of his detention.” 28 U.S.C. § 2255(e) (the
“savings clause”); McCarthan v. Dir. of Goodwill
Indus.-Suncoast Inc., 851 F.3d 1076, 1081 (11th Cir.
2017) (en bane); In re Vial, 115 F.3d 1192, 1194 (4th
Cir. 1997) (en bane). If a section 2241 petition does not
fall within the scope of section 2255(e)'s savings
clause, the district court must dismiss the
''unauthorized habeas motion ... for lack of
jurisdiction.” Rice v. Rivera, 617 F.3d 802, 807 (4th
Cir. 2010) (per curiam).
Moss is procedurally barred from filing a section
2255 motion because he already filed one such motion
and has not received authorization from the Eleventh
Circuit to file another. See 28
U.S.C. § 2255(h); McCarthan, 851 F.3d at 1090;
Gilbert v. United States, 640 F.3d 1293, 1308 (11th Cir.
2011) (en bane). Section 2255 is “not rendered
inadequate or ineffective merely because ... an
individual is procedurally barred from filing a [section]

19a
2255 motion.” Vial, 115 F.3d at 1194 n.5; see Gilbert,
640 F.3d at 1307–08. Rather, section 2255 “is
inadequate or ineffective to test the legality of a
conviction” only if three conditions are met:
(1) at the time of conviction, settled law of this
circuit or the Supreme Court established the
legality of the conviction; (2) subsequent to the
prisoner's direct appeal and first [section] 2255
motion, the substantive law changed such that
the conduct of which the prisoner was convicted
is deemed not to be criminal; and (3) the prisoner
cannot satisfy the gate keeping provisions of
[section] 2255 because the new rule is not one of
constitutional law.
In re Jones, 226 F.3d 328, 333–34 (4th Cir. 2000)2.
Here, the conduct of which Moss was convicted
remains criminal, and the savings clause does not help
him. See, e.g., Venta v. Warden, FCC Coleman-Low,
No. 16-14986-GG, 2017 WL 4280936, at *2 (11th Cir.
Aug. 3, 2017) (per curiam) (unpublished) cert. denied,
2018 WL 311484 (Jan. 8, 2018); Smith v. FCC
Coleman-Medium Warden, 701 F. App'x 929, 931 (11th
2

The court would look to Eleventh Circuit precedent, in the
context of the Jones test, to determine whether substantive law
had changed between the time of conviction and after the filing
of the prisoner's first section 2255 petition. See, e.g., Eames v.
Jones, 793 F. Supp. 2d 747,749–50 (E.D.N.C. 2011); Chaney v.
O'Brien, No. 7:07CV00121, 2007 WL 1189641, at *2–3 & n.1
(W.D. Va. Apr. 23, 2007) (unpublished), aff’d, 241 F. App'x 977
(4th Cir. 2007) (per curiam) (unpublished). In determining
whether the Jones test applies, the court applies Fourth Circuit
procedural law, including the procedural bar on applying the
savings clause to sentence challenges. See Chaney, 2007 WL
1189641, at *3 n.l.

20a
Cir. 2017) (per curiam) (unpublished); Casado v.
Flournoy, No. 2:17-CV-38, 2017 WL 4684182, at *3–4
(S.D. Ga. Oct. 18, 2017) (unpublished), report and
recommendation adopted, 2017 WL 5196615 (S.D. Ga.
Nov. 9, 2017) (unpublished); Hill v. Taylor, No. 1:14CV-00477-MHH-TMP, 2017 WL 1097216, at *4 (N.D.
Ala. Mar. 2, 2017) (unpublished), report and
recommendation adopted, 2017 WL 1076446 (N.D.
Ala. Mar. 22, 2017) (unpublished); Howard v. Warden.
FCI Tallahassee, No. 4:15CV66-RH/CAS, 2017 WL
781049, at *6 (N.D. Fla. Jan. 27, 2017) (unpublished),
report and recommendation adopted, 2017 WL 776102
(N.D. Fla. Feb. 28, 2017) (unpublished). Because Moss
has not demonstrated that section 2255 is an
inadequate or ineffective remedy, Moss may not
proceed on his claim under section 2241. Moreover, the
court has considered the cases Moss has cited, and
finds them distinguishable. See Harden v. Young, 612
F. App'x 256, 257 (5th Cir. 2015) (per curiam)
(unpublished); Henson v. Coakley. No.5:14-CV-19118,
2017 WL 2508203, at *4 (S.D. W.Va. May 19, 2017)
(unpublished), report and recommendation adopted,
2017 WL 2486351 (S.D. W.Va. June 8, 2017)
(unpublished); Rogers v. United States, No. 3:08-CR135-J-34JBT, 2017 WL 637487, at *2 n.3 (M.D. Fla.
Feb. 16, 2017) (unpublished); Howard, 2017 WL
781049, at *6.
After reviewing the claims presented in Moss's
habeas petition in light of the applicable standard, the
court determines that reasonable jurists would not
find the court's treatment of any of Moss's claims
debatable or wrong, and none of the issues deserve
encouragement to proceed further. See 28 U.S.C. §
2253(c); Miller-El v. Cockrell, 537 U.S. 322, 336–38

21a
(2003); Slack v. McDaniel, 529 U.S. 473, 484 (2000).
Accordingly, the court denies a certificate of
appealability.
In sum, the court GRANTS petitioner's motion to
amend [D.E. 4] and DISMISSES petitioner's
application for a writ of habeas corpus under 28 U.S.C.
§ 2241 [D.E. 1, 5] for lack of jurisdiction, or,
alternatively, for failure to state a claim. The court
DENIES a certificate of appealability. The clerk shall
close the case.
SO ORDERED. This 22 day of January 2018.

JAMES C. DEVER III
Chief United States District Judge

22a

APPENDIX C

UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 18-6096
(5:17-hc-02078-D)

JERMAINE LENARD MOSS,
Petitioner – Appellant,
v.
KENNY ATKINSON, Warden,
Respondent – Appellee.
ORDER
The court denies the petition for rehearing and
rehearing en banc. No judge requested a poll under
Fed. R. App. P. 35 on the petition for rehearing en
banc.
Entered at the direction of the panel: Chief Judge
Gregory, Judge Diaz, and Judge Harris.
For the Court
/s/ Patricia S. Connor, Clerk

23a

APPENDIX D

28 U.S.C. § 2241. Power to grant writ.
(a) Writs of habeas corpus may be granted by the
Supreme Court, any justice thereof, the district courts
and any circuit judge within their respective
jurisdictions. The order of a circuit judge shall be
entered in the records of the district court of the
district wherein the restraint complained of is had.
(b) The Supreme Court, any justice thereof, and any
circuit judge may decline to entertain an application
for a writ of habeas corpus and may transfer the
application for hearing and determination to the
district court having jurisdiction to entertain it.
(c) The writ of habeas corpus shall not extend to a
prisoner unless—
(1) He is in custody under or by color of the authority
of the United States or is committed for trial before
some court thereof; or
(2) He is in custody for an act done or omitted in
pursuance of an Act of Congress, or an order,
process, judgment or decree of a court or judge of the
United States; or
(3) He is in custody in violation of the Constitution
or laws or treaties of the United States; or
(4) He, being a citizen of a foreign state and
domiciled therein is in custody for an act done or
omitted under any alleged right, title, authority,
privilege, protection, or exemption claimed under

24a
the commission, order or sanction of any foreign
state, or under color thereof, the validity and effect
of which depend upon the law of nations; or
(5) It is necessary to bring him into court to testify
or for trial.
(d) Where an application for a writ of habeas corpus is
made by a person in custody under the judgment and
sentence of a State court of a State which contains two
or more Federal judicial districts, the application may
be filed in the district court for the district wherein
such person is in custody or in the district court for the
district within which the State court was held which
convicted and sentenced him and each of such district
courts shall have concurrent jurisdiction to entertain
the application. The district court for the district
wherein such an application is filed in the exercise of
its discretion and in furtherance of justice may
transfer the application to the other district court for
hearing and determination.
(e)(1) No court, justice, or judge shall have jurisdiction
to hear or consider an application for a writ of
habeas corpus filed by or on behalf of an alien
detained by the United States who has been
determined by the United States to have been
properly detained as an enemy combatant or is
awaiting such determination.
(2) Except as provided in paragraphs (2) and (3) of
section 1005(e) of the Detainee Treatment Act of
2005 (10 U.S.C. 801 note), no court, justice, or judge
shall have jurisdiction to hear or consider any other
action against the United States or its agents
relating to any aspect of the detention, transfer,
treatment, trial, or conditions of confinement of an

25a
alien who is or was detained by the United States
and has been determined by the United States to
have been properly detained as an enemy
combatant or is awaiting such determination.
28 U.S.C. § 2255. Federal custody; remedies on
motion attacking sentence.
(a) A prisoner in custody under sentence of a court
established by Act of Congress claiming the right to be
released upon the ground that the sentence was
imposed in violation of the Constitution or laws of the
United States, or that the court was without
jurisdiction to impose such sentence, or that the
sentence was in excess of the maximum authorized by
law, or is otherwise subject to collateral attack, may
move the court which imposed the sentence to vacate,
set aside or correct the sentence.
(b) Unless the motion and the files and records of the
case conclusively show that the prisoner is entitled to
no relief, the court shall cause notice thereof to be
served upon the United States attorney, grant a
prompt hearing thereon, determine the issues and
make findings of fact and conclusions of law with
respect thereto. If the court finds that the judgment
was rendered without jurisdiction, or that the
sentence imposed was not authorized by law or
otherwise open to collateral attack, or that there has
been such a denial or infringement of the
constitutional rights of the prisoner as to render the
judgment vulnerable to collateral attack, the court
shall vacate and set the judgment aside and shall
discharge the prisoner or resentence him or grant a

26a
new trial or correct the sentence as may appear
appropriate.
(c) A court may entertain and determine such motion
without requiring the production of the prisoner at the
hearing.
(d) An appeal may be taken to the court of appeals
from the order entered on the motion as from a final
judgment on application for a writ of habeas corpus.
(e) An application for a writ of habeas corpus in behalf
of a prisoner who is authorized to apply for relief by
motion pursuant to this section, shall not be
entertained if it appears that the applicant has failed
to apply for relief, by motion, to the court which
sentenced him, or that such court has denied him
relief, unless it also appears that the remedy by
motion is inadequate or ineffective to test the legality
of his detention.
(f) A 1-year period of limitation shall apply to a motion
under this section. The limitation period shall run
from the latest of—
(1) the date on which the judgment of conviction
becomes final;
(2) the date on which the impediment to making a
motion created by governmental action in violation
of the Constitution or laws of the United States is
removed, if the movant was prevented from making
a motion by such governmental action;
(3) the date on which the right asserted was initially
recognized by the Supreme Court, if that right has
been newly recognized by the Supreme Court and
made retroactively applicable to cases on collateral
review; or

27a
(4) the date on which the facts supporting the claim
or claims presented could have been discovered
through the exercise of due diligence.
(g) Except as provided in section 408 of the Controlled
Substances Act, in all proceedings brought under this
section, and any subsequent proceedings on review,
the court may appoint counsel, except as provided by
a rule promulgated by the Supreme Court pursuant to
statutory authority. Appointment of counsel under
this section shall be governed by section 3006A of title
18.
(h) A second or successive motion must be certified as
provided in section 2244 by a panel of the appropriate
court of appeals to contain—
(1) newly discovered evidence that, if proven and
viewed in light of the evidence as a whole, would be
sufficient to establish by clear and convincing
evidence that no reasonable factfinder would have
found the movant guilty of the offense; or
(2) a new rule of constitutional law, made
retroactive to cases on collateral review by the
Supreme Court, that was previously unavailable.

